HHS/OIG, Audit -"Ryan White Title I Funds Claimed by a Housing Contractor of the San Francisco Eligible Metropolitan
Area for the Fiscal Year Ended February 28, 2002,"(A-09-03-01017)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by a Housing Contractor of the San Francisco Eligible Metropolitan Area for the
Fiscal Year Ended February 28, 2002," (A-09-03-01017)
August 27, 2004
Complete
Text of Report is available in PDF format (1.41 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the AIDS Office,
a Ryan White Title I grantee, ensured that Baker Places, one of its housing contractors (1) provided the expected program
services to clients eligible for CARE Act Title I and (2) followed Federal requirements for claiming program costs under
CARE Act Title I.  The AIDS Office ensured that Baker Places provided expected program services.  However,
it did not monitor Baker Places to ensure that the time limit for housing services met the intent of CARE Act Title I
and that Baker Places followed Federal requirements for claiming costs.  In addition to five procedural recommendations,
we recommended that the AIDS Office (1) refund $216,461 to the Federal Government, the total amount overpaid to Baker
Places for unallowable costs, and (2) work with HRSA to evaluate the allowability of $80,776 claimed for housing services
that may not have met the intent of CARE Act Title I, and make a refund as appropriate.